                                    Closeout for M97100032


   On January 22, 1997, a n NSF program manager1 forwarded a letter to OIG from
the ' ~ o m ~ l a i n a n t .I2n his letter, the complainant requested information from the
program manager in connection with a (declined) proposal submitted to NSF by
faculty members in the complainant's department.3 The complainant was not listed
as a PI or co-PI on the proposal, but was to provide technical support for certain
aspects of the project. The complainant'alleged that his university had retaliated
against him because he complained that his contributions to the project had been
misrepresented. The complainant had requested information from the program
manager because the program manager had conducted a site visit a t the
complainant's university in connection with the submitted proposal. The program
manager told the complainant he had no information to provide him that met his
request, and suggested he discuss any misconduct-in-science matters with OIG.
   OIG spoke with the complainant who thought the university had orally
misrepresented the extent of his participation in the project either before or during
NSF's site visit. He alleged that the university terminated his contract when he
"blew the whistle" by complaining. He said he was seeking information from the
program manager, but the program manager had not provided any. OIG
determined that the complainant's original letter was more properly handled as a
Privacy Act request, forwarded it to NSF's Privacy Act Officer (PAO),4 and told the
complainant to contact the PAO.
    The PA0 responded to the complainant and-informedhim that "the only
personal information, about Fim], in t h a t file is the vitae provided with the
proposal submission. . . . there are no other records maintained that contains
personal information about Fim]." The complainant then alleged to OIG that NSF,
through the program officer, was engaged in a "cover-upnbecause it would not
provide him with the information he sought. He also alleged that the program
officer had discussed his involvement with the project, and the university's alleged
misrepresentation of his involvement with the project, with the media. OIG
requested that he provide any evidence he had to support his allegations.
   The complainant then informed OIG that the program manager was not being
honest about his description of the site visit, and provided OIG with the names of
two university panelists who participated in the site visit. He alleged the panelists
should recall a conversation in which he was misrepresented that took place during
a particular event during the site visit.

    1 (footnote redacted).
    2 (footnote redacted).
    3 (footnote redacted).
    4                       was in the Policy Office of the Division of Contracts, Policy, and Oversight
in the Office of Budget, Finance, and Award Management.


                                             Page 1of 2
                               Closeout for M97100032


    On October 20, 1997, OIG opened this case to look into the complainant's
allegations of a n NSF "cover-up" as a n oversight matter. OIG confirmed with the
program that the names of the two university panelists were the same as the names
the complainant provided. OIG interviewed the program manager (again) and both
panelists. Neither the two panelists nor the program manager remember any
conversations with anyone (including the media) either with or about the
complainant before or during the site visit. After the site visit, both panelists said
they had been contacted by the complainant. Neither the panelists nor the program
manager attached any significance to the event the complainant mentioned, and
none of the three recalls any conversation in which the subject was mentioned.
Specifically, neither the panelists nor the program manager recalled ever hearing
anyone make the particular misrepresentation the complainant alleged.
   OIG concluded there is no evidence that the program manager was involved in a
"cover-up" or that he handled any aspect of the site visit, either before, during, or
afterward, inappropriately. The PA0 confirmed that there are no documents in
NSF's records that relate to the complainant's allegations and that the complainant
was offered the one document (his vitae) that was responsive to his Privacy Act
request. This inquiry is closed and no further action will be taken on this case.

cc: Legal, AIG-Oversight, IG




                                     Page 2 of 2                              M97-32
